                                                                                l   o       s   e     o u t
                                    NATIONAL SCIENCE FOUNDATION                                     Page i of 2
                                                                                                      V .

                                        4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230,
                                                               6     .                  L

                                                               &.P   ,




        OFFICE OF /
   INSPECTOR GENERAL
                 1


Date:            June 2.2000
To :
From:
Via:                                                                                        s
Subject:

                 1

Background:
                 I

On July 8, 1999,            (complainant) and her attorney,
NSF/OIG lnve$tigations to relay
mi~rnana~ernedt  of NSF finds at the
Dat




On July 9, 1999 OIG requested the Cooperative award       jacket for review.
On September I, 1999 the OIG Investigator, SA r e q u e s t e d the
expenditure r e & ? for the Cooperative award.

On November 1, 1999 the complainant recontacted the
information abdut the allegations and related




           (703) 306-2100   OIG Anonymous Hotline (800) 428-2189      http://www.nsf,gov/oig/oig
                 I                 Electronic mail hotline: oig@nsf.gov
                 I
proceeding. The complainant explained that the questioned cost category might be
Student ~utrekchstipends. On November 2, 1999 OIG received a copy of the proceeding
transcripts.
                I
In order to h h h e r assess the institution's risk of mismanagement, on November 9, 1999,
SA -quested                a six-month judgmental sample of documented expenditures for
travel, graduate support, student salaries, recruitment and seminars, and miscellaneous
categories. OIGI
                   received the financial documents November 26, 1999.
             I



Findings:

The review of-expenditures over the six-month sample demonstrated-no unallowable
costs or overiPent cost categories. Additionally, the complainant was not detailed about
the allegatiodwhich she received second-hand from an employee's comment who later
              11
filed complaints against the complainant. Given the lack of findings, this case does not
warrant intediews of c      i    a   1 employees and a referral to OIG Audit. This case
is closed.
